No. 21-219

 

IN THE

Supreme Court of the United States

CLEAR CHANNEL OUTDOOR, LLC,
Petitioner,

ve

HEnRY J. RAYMOND, DIRECTOR, DEPARTMENT
OF FINANCE OF BALTIMORE CIty,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF MARYLAND

BRIEF FOR THE CHAMBER OF COMMERCE
OF THE UNITED STATES OF AMERICA
AS AMICUS CURIAE IN SUPPORT
OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,172 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 15, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
